<html>
<title> - THE FUTURE OF BIOTECHNOLOGY: SOLUTIONS FOR ENERGY, AGRICULTURE AND MANUFACTURING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                      THE FUTURE OF BIOTECHNOLOGY:
                         SOLUTIONS FOR ENERGY,
                     AGRICULTURE AND MANUFACTURING

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            December 8, 2015

                               __________

                           Serial No. 114-54

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-824PDF                WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001          
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
MICHAEL T. MCCAUL, Texas             ELIZABETH H. ESTY, Connecticut
RANDY HULTGREN, Illinois             KATHERINE M. CLARK, Massachusetts
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
BRUCE WESTERMAN, Arkansas            SUZANNE BONAMICI, Oregon
DAN NEWHOUSE, Washington             ERIC SWALWELL, California
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana
LAMAR S. SMITH, Texas

                            C O N T E N T S

                            December 8, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     7
    Written Statement............................................     8

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    20
    Written Statement............................................    22

                               Witnesses:

Dr. Mary Maxon, Biosciences Principal Deputy, Lawrence Berkeley 
  National Laboratory
    Oral Statement...............................................    10
    Written Statement............................................    12

Dr. Steve Evans, Fellow, Advanced Technology Development, Dow 
  AgroSciences
    Oral Statement...............................................    24
    Written Statement............................................    26

Dr. Reshma Shetty, Co-Founder, Ginkgo Bioworks
    Oral Statement...............................................    32
    Written Statement............................................    34

Dr. Martin Dickman, Distinguished Professor and Director, 
  Institute for Plant Genomics and Biotechnology, Texas A&M 
  University
    Oral Statement...............................................    40
    Written Statement............................................    43

Dr. Zach Serber, Co-Founder, CSO, and Vice President of 
  Development, Zymergen
    Oral Statement...............................................    54
    Written Statement............................................    57
Discussion.......................................................    61

             Appendix I: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    80


                      THE FUTURE OF BIOTECHNOLOGY:



                         SOLUTIONS FOR ENERGY,



                     AGRICULTURE AND MANUFACTURING

                              ----------                              


                       TUESDAY, DECEMBER 8, 2015

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Barbara Comstock 
[Chairwoman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairwoman Comstock. The Subcommittee on Research and 
Technology will come to order. Without objection, the gentleman 
from Texas, Mr. Weber, is authorized to participate in today's 
hearing.
    And without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Good morning, and welcome to today's hearing entitled ``The 
Future of Biotechnology: Solutions for Energy, Agriculture and 
Manufacturing.''
    In front of you are packets containing the written 
testimony, biographies, and truth-in-testimony disclosures for 
today's witnesses. I now recognize myself for five minutes for 
an opening statement.
    Humans have used biotechnology since the dawn of 
civilization, manipulating biology to improve plants and 
animals through hybridization and other methods.
    Rapid advancements in science--scientific knowledge and 
technology throughout the 20th century gave rise to the field 
of modern biotechnology, making useful products to meet human 
needs and demands. Biotechnology has become part of our 
everyday lives, from producing the insulin used by diabetics, 
to the corn we eat and use to produce fuel, to the detergent 
that cleans our clothes.
    Today, we are here to discuss what the future of 
biotechnology will look like in this century, specifically for 
solving some of our greatest 21st century challenges in energy, 
agriculture, and manufacturing.
    In June, the Subcommittee held a hearing on ``The Science 
and Ethics of Genetically Engineered Human DNA.'' The hearing 
looked at the research and issues surrounding the application 
of new gene editing technologies for human health. I hope that 
today's hearing will build upon that fascinating discussion, 
and help inform a research and regulatory framework that 
continues to ensure safety without stifling innovation.
    The biotechnology and biological science industry is a 
sizable and growing economic driver in our country. In 
Virginia, the industry employs over 26,000 people across 1,500 
companies and institutions, including the George Washington 
University Ashburn Campus Computational Biology Institute 
located in my district. Here, they apply technology tools to a 
variety of funded research in pediatric medicine, coronary 
heart disease, cancer, Alzheimer's disease, and schizophrenia, 
just to name a few.
    Those are good-paying jobs, and I want to find ways to keep 
those jobs in the United States and encourage young people to 
study the STEM subjects needed to fill these jobs and create 
new ones. But more importantly, these are jobs and an industry 
that is going to improve our way of life and improve our health 
and save lives.
    So I appreciate and look forward to learning more about 
these new and emerging technologies and their applications, 
understand better the role of the federal government in funding 
and regulating biotechnology, and hear from the witnesses about 
the economic benefits to the United States and how we can stay 
on the cutting edge of innovation.
    [The prepared statement of Chairwoman Comstock follows:]

     Prepared Statement of Subcommittee on Research and Technology
                      Chairwoman Barbara Comstock

    Humans have used biotechnology since the dawn of civilization, 
manipulating biology to improve plants and animals through 
hybridization and other methods.
    Rapid advancements in scientific knowledge and technology 
throughout the 20th Century, gave rise to the field of modern 
biotechnology- making useful products to meet human needs and demands. 
Biotechnology has become part of our everyday lives, from producing the 
insulin used by diabetics, to the corn we eat and use to produce fuel, 
to the detergent that cleans our clothes.
    Today, we are here to discuss what the future of biotechnology will 
look like in this century, specifically for solving some of our 
greatest challenges in energy, agriculture and manufacturing.
    In June, the Subcommittee held a hearing on the Science and Ethics 
of Genetically Engineered Human DNA. The hearing looked at the research 
and issues surrounding the application of new gene editing technologies 
for human health. I hope that today's hearing will build upon that 
fascinating discussion, and help inform a research and regulatory 
framework that continues to ensure safety without stifling innovation.
    The biotechnology and biological science industry is a sizable and 
growing economic driver in the United States. In Virginia, the industry 
employs over 26,000 people a cross 1,500 companies and institutions. 
Including the George Washington University Ashburn Campus Computational 
Biology Institute, located in my district. Here they apply technology 
tools to a variety of funded research in pediatric medicine, coronary 
heart disease, cancer, Alzheimer's disease, and schizophrenia, to name 
a few.
    These are good paying jobs--and I want to find ways to keep those 
jobs in the United States and encourage young people to study the STEM 
subjects needed to fill those jobs and create new ones.
    I look forward to learning more about these new and emerging 
technologies and their applications, understand better the role of the 
federal government in funding and regulating biotechnology, and hear 
from the witnesses about the economic benefits to the United States.
    Chairwoman Comstock. I now recognize--I guess our Ranking 
Member is not with us yet this morning but will be joining us 
shortly. I know he does have a little bit of a flight delay but 
will be with us shortly. And I appreciate Mr. Lipinski joining 
us, and we will recognize him at that time.
    But, let me see, we will--if there are Members who wish to 
submit additional opening statements, your statements will be 
added to the record at this point.
    Chairwoman Comstock. Now, at this time I would like to 
introduce our witnesses: Dr. Mary Maxon is the Biosciences 
Principal Deputy at Lawrence Berkeley National Laboratory. She 
has previous experience as Assistant Director for Biological 
Research at the White House Office of Science and Technology 
Policy, or OSTP, and has worked for a variety of biotech 
organizations. Dr. Maxon earned her Ph.D. in molecular cell 
biology from the University of California, Berkeley and did 
postdoctoral research in biochemistry and genetics at the 
University of California, San Francisco.
    Our second witness today is Dr. Steve Evans. Dr. Evans is a 
Fellow for Advanced Technology Development at Dow AgroSciences. 
Dr. Evans is the past Chair of the Industrial Advisory Board of 
the Synberc Synthetic Biology Consortium funded by the National 
Science Foundation. Dr. Evans earned his bachelor's degrees in 
chemistry and microbiology from the University of Mississippi 
and his Ph.D. in microphysiology from the University of 
Mississippi Medical Center.
    Today's third witness is Dr. Reshma Shetty, Cofounder of 
Ginkgo Bioworks. Dr. Shetty served as an advisor to the 
International Genetically Engineered Machines competition, 
where she was best known for engineering bacteria to smell like 
bananas and mint, and was named by Forbes as one of the eight 
people ``inventing the future'' in 2008. Dr. Shetty earned her 
bachelor's in computer science from the University of Utah and 
a Ph.D. in biological engineering from MIT.
    Testifying next is Dr. Martin Dickman, Distinguished 
Professor and Director of the Institute for Plant Genomics and 
Biotechnology at Texas A&M. Dr. Dickman's research focuses on 
the genetics and molecular biology of fungal-plant 
interactions, and he established that parallels exist between 
plant and animal systems, disease, and infection strategies. 
Dr. Dickman earned his Ph.D. from the University of Hawaii.
    Our final witness is Dr. Zach Serber, Cofounder and Vice 
President of Development for Zymergen. Dr. Serber previously 
worked as Director of Biology at Amyris, and as a Research 
Fellow at Stanford University Medical School. Dr. Serber earned 
his bachelor's degree from Columbia University, his master's in 
neuroscience from the University of Edinburgh, and his Ph.D. in 
biophysics from the University of California San Francisco.
    As always, we are so honored to have such distinguished and 
accomplished witnesses joining us here today.
    And I now recognize Dr. Maxon for five minutes to present 
her testimony.

                  TESTIMONY OF DR. MARY MAXON,

                 BIOSCIENCES PRINCIPAL DEPUTY,

             LAWRENCE BERKELEY NATIONAL LABORATORY

    Dr. Maxon. Chairwoman Comstock, Members of the Committee, 
thank you for holding this very important meeting and for 
inviting me to participate. I applaud the committee for 
exploring the great potential that advanced biology has to 
address the Nation's grand challenges and to stimulate 
innovation. I believe a federally coordinated strategic program 
that leverages the national labs and other existing federal 
capabilities would greatly accelerate this.
    I am the Biosciences Principal Deputy at Lawrence Berkeley 
National lab and have enjoyed a 30-year career as a biologist. 
Recently, I served as Assistant Director for Biological 
Research at the Office of Science and Technology Policy, where 
I was the principal author of the National Bioeconomy 
Blueprint.
    Although my testimony represents my own views, I would be 
remiss not to recognize the leadership of the Department of 
Energy and Berkeley Lab in driving the Nation's engineering 
biology capabilities forward. In particular, DOE's Office of 
Biological and Environmental Research supports some of the 
Nation's most foundational resources in this field.
    DNA can be viewed as a programming language where, instead 
of the 1's and 0's that are used to program computers, A's and 
C's and G's and T's, the building blocks of DNA, are used to 
program biology for useful purposes. While DNA can improve 
agricultural yields, increased nutrients in soil, reduce the 
need for water and fertilizers, it can be used to create bio-
solutions to reduce the demand for livestock-based protein 
sources such as beef and poultry and for a planet with more 
people and fewer resources. It can convert non-food biomass 
into fuel and chemicals, and in the process, replace fossil 
fuels. It can convert microbes into low-cost producers of drugs 
and alter microbiomes to improve human and animal health.
    Although DNA sequencing--that is, reading DNA--thanks in 
large part to the Human Genome Project, is fast, cheap, and 
democratic, meaning that researchers everywhere can now 
sequenced DNA themselves, engineering biology--that is, writing 
DNA--remains slow and expensive.
    National labs can help change this dynamic. They can play 
important roles in harnessing biology to meet national-scale 
challenges and, in doing so, democratize engineering biology to 
enable researchers everywhere to drive advancements across 
fields of science and industrial applications. But currently 
missing from this collection of high-throughput open--high-
throughput--sorry, currently missing from the collection of 
national laboratory user facilities is a bio-foundry, a high-
throughput, open engineering biology facility powered by 
capabilities in physical sciences and supercomputing to develop 
freely available tools, technologies, and knowledge needed to 
accelerate engineering biology and drive a sustainable national 
bioeconomy.
    Such a facility could accelerate scientific discovery, 
reduce cost and time to market for new bioproducts that are 
needed to transform manufacturing processes for both human and 
environmental benefit. It would build on and capture a greater 
return on DOE's existing investments in genome sequencing, 
synthetic biology, and other engineering research capabilities.
    Berkeley Lab has made an initial investment to launch an 
open bio-foundry and has undertaken early proof-of-concept work 
aimed at establishing a robust democratic platform technology 
for the engineering of biology to provide fundamental advances 
needed to transform manufacturing to reduce energy intensity 
and negative environmental impacts of traditional 
manufacturing.
    Recent industry listening sessions held by Berkeley Lab 
indicate that, in addition to user facilities, national labs 
can serve at least four unique and important functions for 
industry: 1) meet vital research needs that are considered off-
mission by the company investors; 2) validate technologies from 
the academic sector for companies, which is currently a cost--a 
time-consuming and frequently unproductive endeavor for 
industry, and provide for the transfer of technical expertise 
and capacity-building directly by embedding industry 
researchers in the bio-foundry; and lastly, by providing access 
to flexible pilot-scale production facilities to enable 
research advances in understanding how to predict large-scale 
production of bioproducts, currently something of a holy grail.
    I applaud the Committee for its interest in the topic of 
engineering biology and believe that a vision for a strong, 
long-term research and development program, including research 
in the ethical, environmental, and social aspects of 
engineering biology, is needed for the United States to lay a 
solid foundation on which to build a robust and responsible 
biomanufacturing future, create new markets and jobs, and drive 
the U.S. bioeconomy.
    Thank you.
    [The prepared statement of Dr. Maxon follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairwoman Comstock. Thank you, Doctor.
    And Mr. Lipinski has now joined us so I'm just going to 
take a little break here on the witness testimony and allow 
Congressman Lipinski to give his opening statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock. And I thank 
the witnesses for being willing to deal with this little 
interruption here. I want to thank the Chairwoman for holding 
this hearing and look forward to--I thank Dr. Maxon for her 
testimony and look forward to all the testimony here this 
morning.
    One of the reasons I chose to be on the Science Committee, 
and on this subcommittee in particular, is that we have the 
opportunity to learn firsthand about new and emerging research 
fields and technologies that will transform society and to hear 
what the federal government can do to help society benefit from 
these technologies.
    This morning is no different. Today, we will hear about new 
technologies that have the potential to transform the energy, 
agricultural, and manufacturing sectors. A number of these new 
biotechnologies are based in engineering biology research, 
which is research at the intersection of biology, physical 
sciences, engineering, and information technology. This 
emerging field has been fueled by the development and increased 
affordability of technology such as DNA sequencing and DNA 
synthesis.
    In the case of DNA sequencing, the Human Genome Project, an 
international research project to sequence the human genome, 
was coordinated by the Department of Energy and the National 
Institutes of Health, and it took over a decade and cost $2.7 
billion. Remarkably, sequencing the human genome now costs less 
than $1,500.
    Federal agencies under this committee's jurisdiction have 
significant programs in engineering biology. The Department of 
Energy has invested in programs focused on bioenergy. The 
National Science Foundation has invested in this area both in 
individual research awards and through their support of an 
engineering research center, Synberc at UC Berkeley.
    NASA and NIST also have programs in this area. NIST has a 
particularly important role in the development of technical 
standards for a future biomanufacturing economy. And of course, 
agencies outside the Committee's jurisdiction, including DARPA, 
NIH, and the Department of Agriculture, are also significant 
players in this research.
    Due to the importance of this growing research field, the 
Nation would benefit not just from increased investment at 
individual agencies but also from coordination of federal 
efforts under some kind of national plan or strategy.
    Additionally, we should ensure that we are facilitating 
public-private partnerships. Given the potential commercial 
applications across nearly all sectors of our economy, there is 
a need to engage and encourage private sector collaboration at 
a pre-competitive level. I look forward to hearing from all of 
our private sector witnesses what they are looking for in 
partnerships with federal agencies, national labs, and 
universities.
    And finally, we must pay careful attention to the issues of 
human and environmental safety and ethics when it comes to 
engineering biology research, including support of research on 
these topics.
    The future of biotechnology could include automotive and 
even jet fuels produced cheaply, cleanly, and safely by 
specifically engineered bacteria, also, more drought- and pest-
tolerant crops and feedstocks, and also, transformation of 
materials manufacturing with applications across our economy. 
These technologies would have significant economic benefit for 
the United States. So it is important that we make the 
necessary federal investments in the foundational research and 
partner with the private sector across the potential 
application areas.
    I look forward to the rest of the witness testimony and the 
Q&A, and I thank you for being here today. I yield back the 
balance of my time.
    [The prepared statement of Mr. Lipinski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    Chairwoman Comstock. Thank you.
    And I'll now recognize Dr. Evans for his five minute 
testimony.

                 TESTIMONY OF DR. STEVE EVANS,

            FELLOW, ADVANCED TECHNOLOGY DEVELOPMENT,

                        DOW AGROSCIENCES

    Dr. Evans. Good morning, Chairwoman Comstock, Ranking 
Member Lipinski, and Members of the House Subcommittee on 
Research and Technology. Thank you and--for inviting me here to 
represent my company Dow AgroSciences in this hearing on 
emerging biotechnology applications.
    We trace our roots in agriculture back 60 years, and we 
emerge from the Dow Chemical Company, a company that has been 
transforming technology into viable solutions since 1897.
    The drivers for application of biotechnology into 
agriculture are clear. The global demands for food, fuel, 
fiber, and feed are strong and rising. The solutions to meet 
this global need must be met within increasing constraints and 
unpredictability, reinforcing the need to make newer product 
offerings even more sustainable.
    We have all heard of the challenge set forth for global 
needs by 2050, and between now and that point in time, 
agriculture will need to produce more food than the sum total 
of what has been produced in the last 10,000 years. Since their 
introduction in the mid-1990s, agriculture biotechnology 
offerings have made significant contributions to global food 
security, and biotechnology-based crops are the fastest-adopted 
crop technology in the history of modern agriculture.
    If you were to visit an early-stage laboratory in--R&D 
laboratory in Dow AgroSciences, you would see the tools and 
techniques that are used in common bioscience endeavors. Early-
stage ag biotechnology benefits from the same molecular 
biology, bioinformatics, DNA sequencing, high-throughput 
analytical systems, and other advances from basic life sciences 
that have been funded by federal research.
    One of the ways that Dow AgroSciences has benefitted from 
advances in related fields is by being able to provide input 
and shape ideas for technology in something like the NSF 
engineering research centers. Synberc, as has already been 
mentioned, brings together 37 professors, 18 universities, and 
47 companies with the stated mission of making biology easier 
to engineer. As past Chair of that Industrial Advisory Board, I 
note that a portion of the companies they are represent 
established ag companies but also smaller startups with 
concepts in the agricultural space.
    The RC provides a unique precompetitive venue for industry 
participation and influence in the technology development. And 
some of the tools that have been developed there are now being 
brought into our company directly and used by Dow AgroSciences. 
I recently examined some patent activity by other ag players, 
and you can see that those technologies are being broadly 
adopted at the early stages of most of the agricultural 
companies.
    But to really understand and develop a realistic 
expectation for when these things would appear in agricultural 
products, you'd have to understand a little bit about 
biotechnology development timelines. A typical range of 
development spans seven to ten years and an average investment 
price tag of over $130 million per product. While laboratory 
tools and technologies just described play an important role in 
performing and accelerating that front end, we are still faced 
with multiple challenges at national and international 
regulatory frameworks.
    Companies can understand and manage the risks related to 
product performance and customer choice. However, because of 
the time horizon of nearly a decade and a cost of $100 million, 
to make informed investment decisions, we need to have a 
regulatory approval process that is predictable to enable 
scientific planning. That regulatory process needs to be 
science-based and proportionate to risk.
    In addition to using biotechnology for modern crops, we 
have an offering in Dow AgroSciences that is based on 
agrochemicals derived from natural products. We--taken 
together, products and chemistries that are inspired by natural 
products account for 1/4 of the global ag chemistry sales. One 
challenge in developing those natural products, whether for 
farm or ag, is that we need to attain sufficient productivity 
to make that product economically viable.
    Dow AgroSciences platform to integrate those biotechnology 
tools, either from external sources or from internal 
capabilities aimed at rational engineering of our strains is 
how we use engineering biology in our platform. Nationally 
funded research has enabled key milestones in that field, but 
the United States is not alone in recognizing the economic and 
environmental benefit to be derived from commercial 
manufacturing of novel natural products or chemistries inspired 
by them.
    So finally, I will propose that a framework for involvement 
of the federal government can be understood in terms of three 
C's. Number one, continue to support exceptional science; 
number two, convene forums for discussion on development and 
risk-proportionate oversight; and number three, create a 
strategic vision for the United States biotechnology 
investments to produce exceptional solutions for the world's 
most pressing needs.
    These actions are important to maintain the United States' 
position of leadership and development in this technology, and 
it's an increasingly competitive and global race. Within these 
fields, these investments provide technology, a workforce of 
new skill talent and predictable science-based regulatory 
framework from which companies like ours can make informed 
investment decisions for products taking over a decade to bring 
to market.
    Thank you.
    [The prepared statement of Dr. Evans follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Comstock. Thank you, Dr. Evans.
    Now, I will recognize Dr. Shetty for a five minute 
statement.

                TESTIMONY OF DR. RESHMA SHETTY,

                  CO-FOUNDER, GINKGO BIOWORKS

    Dr. Shetty. Chairwoman Comstock, Ranking Member Lipinski, 
and distinguished Members of the Subcommittee, I would like to 
thank you for the opportunity to testify here today on the 
future of biotechnology and its applications in energy and 
agriculture and manufacturing. My name is Reshma Shetty, and 
I'm a co-Founder and President of Ginkgo Bioworks, a 
biotechnology startup in Boston, Massachusetts. I hold a Ph.D. 
in biological engineering from MIT and have been active in the 
field of biological engineering for over 10 years.
    Today, I was asked to testify a little bit about Ginkgo's 
story as a case study for how federal investment in emerging 
technologies can stimulate the growth of new companies and new 
industries and make recommendations for how the U.S. Government 
can continue to stimulate the growth of the domestic 
biotechnology industry.
    Ginkgo is an organism company. We design and build microbes 
such as yeast to spec for customers. Our customers use Ginkgo 
microbes in fermentation. Fermentation is a process by which 
cooking is done with microbes rather than heat. Humans have 
been fermenting foods and beverages like yogurt, beer, and wine 
for more than 9,000 years, so it's a very old technology.
    At Ginkgo we design yeast to make new products from 
fermentation or what we call cultured products. Our first 
commercial organisms are microbes for the production of 
cultured ingredients, so ingredients end up in household 
consumer goods, things like sweeteners, flavors, fragrances, 
vitamins. So, for example, Gingko is developing a yeast to 
produce a rose fragrance, what we call a cultured rose. Other 
companies are making cultured products such as animal-free 
cultured leather, animal-free cultured meat, cultured milk, 
cultured silk for making jackets, and so on.
    I started Ginkgo in 2008 with four fellow MIT Ph.D.'s, 
including Tom Knight, who is widely considered to be a father 
of the field of synthetic biology. Quite frankly, at the time I 
knew almost nothing about what it took to start and run a 
company. What I did know was that biological technologies were 
going to be incredibly important in this century, and I had 
ideas about what were the important technologies to be working 
on and developing.
    Federal grants and contracts from the NSF SBIR program, DOE 
ARPA-E, NIST, and DARPA all provided absolutely critical 
funding for Ginkgo in our early days as we transitioned from 
MIT and university life to the real world. Today, we've raised 
more than $50 million of private investment, have built an 
18,000 square foot facility in Boston for manufacturing of 
microbes, and we have commercial contracts for more than 20 
different cultured ingredients. In the last 6 months we've 
doubled our workforce and more than 1/4 of which actually live 
in the 5th District of Massachusetts and are represented by 
Congresswoman Clark. In short, your investments help make 
Ginkgo what it is today.
    In the early days of the computer industry, the U.S. 
Government played a critical role in nurturing the nascent 
industry through both R&D funding and through serving as an 
early customer for integrated circuits via the Apollo program. 
This federal investment was critical in creating demand for 
integrated circuits and stimulated a significant later private 
investment in this space. The computer industry would not be 
the major economic and job engine for the U.S. economy that it 
is today if it weren't for the U.S. Government's role.
    I believe that the U.S. Government has an opportunity to 
play a similar role in the emerging biological engineering 
industry. Ginkgo itself is evidence of the payoff that the 
federal R&D investments can generate, and I urge you to build 
on these early R&D investments in this space by recognizing the 
importance of the U.S. Government as an early adopter of 
biotechnology products.
    With countries like the United Kingdom and China having 
well-coordinated national programs in this area, the United 
States is at risk for losing its competitive edge. By serving 
as an early customer and stimulating demand for the products of 
biotechnology, the U.S. Government could play a central role to 
biotechnology today, as it did in the 1960s to the computer 
industry.
    In short, I suggest that the Committee 1) enhance U.S. 
competitiveness in biotechnology via direct R&D funding for 
public domain foundational technologies that are available for 
all to use without intellectual property restrictions; 2) 
continue to garner bipartisan support for H.R. 591 to establish 
a national engineering biology research and development 
program; and 3) recognize the importance of the U.S. Government 
as an early customer for biologically engineered products.
    Thank you.
    [The prepared statement of Dr. Shetty follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairwoman Comstock. Thank you.
    I now recognize Dr. Dickman for five minutes.

                TESTIMONY OF DR. MARTIN DICKMAN,

             DISTINGUISHED PROFESSOR AND DIRECTOR,

                  INSTITUTE FOR PLANT GENOMICS

                       AND BIOTECHNOLOGY,

                      TEXAS A&M UNIVERSITY

    Dr. Dickman. Thank you, and good morning, Chairwoman 
Comstock, Ranking Member Lipinski, and members of the 
subcommittee. Thank you.
    Among other things, I am also the Director of the Norman 
Borlaug Center at Texas A&M University. I'm a plant pathologist 
specializing in fungal diseases. But I wanted to use that title 
as a prelude to just mention Dr. Borlaug, who is largely 
responsible for the development and implementation of the Green 
Revolution. And he has been widely acclaimed for this work, 
including such awards as a Nobel Prize, which is the only 
agriculturist to be awarded this honor; the U.S. Presidential 
Medal of Freedom--he's in company with Mother Teresa--U.S. 
Congressional Gold Medal; and on and on and on.
    But what Dr. Borlaug represented besides breeding plants 
that had desirable attributes was a dogged determination to try 
to ensure his best possible of feeding people throughout the 
world. And he's had a modicum of success with that. In fact, 
one of his other achievements is that he saved a lot of lives, 
but he has considered to have saved more lives than any other 
living human being ever.
    So the mission of our institute, the Institute of Plant 
Genomics and Biotechnology in the Borlaug Center, is to foster 
these ideals and progress using what's available and these 
developing technologies that we've heard a little bit about 
already this morning to increase our understanding of how 
things work in the ag biotechnology space. We want to improve 
agronomic traits for crop plants, and importantly, we want to 
prepare young scientists with the necessary technical and 
conceptual tools to face the inevitable challenges that lie 
ahead.
    As food safety and security concerns continue and are 
likely to increase, it is clear that a new green revolution is 
needed. There is increased urbanization limiting land 
availability, increased water use and energy demands, 
unpredictable climate changes, coupled with pollution and soil 
erosion. When taken together collectively, they all contribute 
to a reduction in yield, and from a grower's point of view, 
yield is certainly the bottom line. We now face the task of 
growing more food on the same or even diminishing amounts of 
land.
    So on the remainder of my time this morning I just want to 
highlight three biotechnological approaches that have varying 
degrees of risk but all have the potential for really, really 
high rewards. And again, because of time, I will pick and 
choose some of the success stories that we in the institute, as 
well as around the world, have employed to address some of 
these biotechnological approaches. So the three approaches I'm 
going to talk about is synthetic biology, which has already 
been mentioned; the phytobiome; and genome editing, which 
you've heard about in the past, and their impact on agriculture 
and food production.
    So in terms of synthetic biology, I'm going to talk about a 
cotton project that we have been undertaking at--in Texas A&M. 
Cotton has a very, very high degree of protein in its seed. 
It's about 25 percent. That's a lot. Therefore, the potential 
for cottonseed to help feed people is evident. However, the 
cottonseed also contains immune problems and cause male 
sterility, thus sort of precluding their application in the 
real world. So breeders at A&M bred out--very simply bred out 
that particular compound called gossypol so it was no longer 
present in the plant and everything looked pretty good. The 
problem was gossypol is also a defense compound in plants 
limiting insect and fungal diseases, and when you got rid of 
gossypol, the plants were basically open game to these 
pathogens and parasites, and so the operation was a success but 
the patient died.
    So how to explore this was done with some of these new 
techniques, which I won't get into too much detail unless 
you're interested, and that is using virus-induced gene 
silencing and plant--and genomics and synthetic biology work at 
A&M was able to not only knock the gene out that made gossypol 
but also direct that construct into the seed tissue itself. 
These are very nice, powerful, significant techniques. So now, 
gossypol would be expressed in the plant. However, it would not 
be expressed only in the seed. Therefore, they were gossypol-
free and the seed could be produced, okay?
    To give you an idea of the scope of this, and we have 
sent--several patents filed and many, many field tests that 
have gone on around the world with these cotton plants is that 
it is estimated that with the addition of this cottonseed as a 
protein source, 500 million more people can now be fed. So this 
is the kind of conclusions we would like to see more of and 
highlight, but it also illustrates the approaches. There was no 
way these experiments and these conclusions could have been 
obtained without biotechnological approaches that were 
implemented and have been relatively new on the scene.
    Now, the other sort of crop example I want to give is 
bananas. I better hurry up. Bananas, very quickly, are 
seedless. And I'm not going to go into the details. But if you 
go to the store and buy a banana, there's no seed. Therefore, 
genetics and breeding are impossible. Now, bananas are a staple 
in a number of developing countries, and when they have 
diseases now, there's no program to study these diseases and 
solve this problem.
    So we have transgenic approaches going on with bananas 
right now both in Africa and Australia and in the United States 
that are successfully impacting banana diseases. If the banana 
diseases are uncontrolled in banana-consuming countries, people 
starve, people die.
    All right. The next topic I'm going to whiz through is the 
phytobiome. And all I want to point out here is it turns out 
the microflora, the endophytes, if you will, is a fancy word, 
and it found in virtually all plants impact a great deal of 
attributes that enhance the crop in question. So these--the 
phytobiome will--for example, will enhance drought tolerance, 
disease control, but only in the areas where they need this to 
happen.
    So in work, for example, done by Dr. Rodriguez, he found in 
Yellowstone that a certain type of microflora associated with 
thermal-tolerant plants looked different from microbiome in the 
ocean, which conferred salt tolerance. So what I'm getting to 
is the fact that we can utilize phytobiome research to 
establish these probiotic microorganisms, and plants will make 
the necessary changes to control the stress that they are faced 
with. This is a new, high-risk, but very user-friendly control 
mechanism.
    The last part is involving CRISPR, which I know you've 
already heard about. So all I'm going to say about CRISPR, 
which doesn't have the same implications as the human 
application, CRISPR in plants has two major advances that are 
very exciting to the plant community. One is multi-plexing and 
the ability to put numerous genes--numerous gene mutations in 
one genetic background, and the other is breeding. CRISPR is 
likely to revolutionize breeding. Breeding is a game of 
creating variation in plants and then going through all the 
characterization that needs to be done to understand the nature 
of that variation. Well, with CRISPR, you can make--you can 
make unlimited genetic variation by using this tool, thus 
obviating the need for chemicals and all the considerable work 
and time and effort that need to be done.
    So I will just come to my conclusions and just say that I 
want to remind everyone that all food that's consumed is 
genetically modified. We need a new green revolution to face 
the coming needs and continuing needs of people throughout the 
world, and we need to support basic research to make the 
conclusions verified. In other words, many of the great 
discoveries are only done by unintended consequences, 
penicillin being a good example, which you could call him 
sloppy microbiologist. He found contamination that was 
inhibiting bacteria, and really that's the key. And the other 
one is CRISPR, which is really a study of immune issues in a 
bacterium led to the CRISPR technology that we discussed in 
quite a bit of detail here and in previous meetings of this 
group.
    Thank you.
    [The prepared statement of Dr. Dickman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    
    Chairwoman Comstock. Great. Thank you, Dr. Dickman. And I 
know we did go over our time, but you're educating us, and so I 
figured it's better for you to take up that time probably than 
some of us. So thank you, and we appreciate your enthusiasm, 
all of you.
    I now recognize Dr. Serber.

                 TESTIMONY OF DR. ZACH SERBER,

              CO-FOUNDER, CSO, AND VICE PRESIDENT

                    OF DEVELOPMENT, ZYMERGEN

    Dr. Serber. Good morning. Thank you, Chairwoman Comstock, 
Ranking Member Lipinski, and the rest of the Committee, for the 
opportunity to testify today on a topic that I've devoted my 
career to expanding the impact of advanced biotechnology.
    A decade ago I was one of hundreds if not thousands of 
early career scientists and engineers who left academia to 
devote our human capital to extending the reach of 
biotechnology. Whereas biotechnology is synonymous for many 
people with the field dedicated to medical therapeutics, 
biotechnology also has the potential to transform other fields, 
including energy, agriculture, and manufacturing. The prospect 
of vastly expanding the societal and economic impact of our 
technical expertise attracted me and many other scientists, 
including Dr. Shetty, to new endeavors focused on realizing 
these potential far-reaching applications.
    Single-celled organisms--microbes--are the most versatile 
chemical factories on the planet. Dr. Shetty has already 
explained how engineering microbes can be used as microscopic 
biofactories. This is the basis for what has been dubbed the 
new bioeconomy in which companies increasingly rely on biology 
to source the materials used in their products.
    This is, however, not a new manufacturing paradigm. Today, 
chemicals made via large-scale fermentation are employed in a 
wide variety of agricultural and industrial applications, and, 
excluding ethanol, comprise over $66 billion in revenue 
globally, or roughly ten percent as much as petrochemicals. 
While a relatively small percentage, the rate of growth of 
chemicals made biologically is greater than ten percent 
annually, whereas the petrochemical market is growing at less 
than seven percent. In time, chemicals made via fermentation 
may come to dominate the overall chemicals market.
    My company, Zymergen, was founded recently in 2013 to 
contribute to this expanding market. Our core business is to 
use biotechnology to rapidly and reliably engineer microbes 
used in the manufacturing of chemicals for a variety of 
applications. Zymergen is under contract with Fortune 500 
companies to improve the manufacturing economics of chemicals 
they currently make in large-scale fermentation by engineering 
the single-celled biofactories they already use.
    Our ability to realize this incredible potential relies not 
only on scientists and engineers but also on government policy 
that supports this type of research and innovation. Having 
interacted with dozens of large domestic producers of goods 
made through fermentation, I should mention that Zymergen fully 
supports the July 2 White House memorandum on modernizing the 
regulatory system for biotechnology products, which directs the 
relevant federal agencies to develop a long-term strategy to 
ensure that the biotechnological regulatory system is prepared 
for the rapidly changing future of our industry.
    I can confidently say that the current regulatory system is 
full of inconsistencies and scientifically unsound 
characterizations. This regulatory system has not kept up with 
changes in the technology, creating confusion, delays, and 
inefficiencies. It is our hope that the EPA, FDA, and USDA can 
efficiently and rapidly update the coordinated framework.
    Two-and-a-half years ago, Zymergen had three founders. 
Today, we have 93 employees. Growth has not slowed and we are 
on pace to more than double in staff size in 2016. This rapid 
growth is not based on speculation. Quite the contrary, our 
challenge to date has been excessive market demand. We are 
working day and night to keep up. Our customers are large, 
established manufacturers of chemicals made through 
fermentation. As they seek to reduce costs and increase 
manufacturing productivity and competitiveness, they see 
Zymergen and our technology as essential to maintaining 
competitiveness.
    Zymergen depends on cross-disciplinary research. Our 
engineers and scientists are trained in fields including 
microbiology, genetic engineering, robotics, chemical 
engineering, and machine learning. Our most valuable employees 
are rare individuals with expertise in multiple relevant 
domains, able to bridge the gaps between, for example, genome 
editing and software engineering. Federally supported 
educational and training programs are critical to providing us 
with the staff we need to grow and fulfill our potential.
    Recent activities in our space supported both through 
public and private sector investment have dramatically altered 
what is now possible through biotechnology. So while Zymergen 
has initially devoted our insights to improving the economics 
of existing products, the approaches developed enable us also 
to expand the palliative chemicals that can be made through 
biology. This amounts to a technological revolution likely as 
important to advancing societal well-being, national security, 
and economic productivity and competitiveness as the invention 
of the transistor or the invention of heavier-than-air flight.
    In keeping with this promise, we recently contracted with 
the DARPA's new Biological Technologies Office under their 
Living Foundries: 1000 Molecules program. This program is 
developing new capabilities that will enable biomanufacturing 
of known or novel chemicals on demand and at scale. As few as 
three years ago, entire companies in this arena were founded to 
develop a single chemical product. With the support of DARPA, 
we at Zymergen are pushing the technology to develop new 
biosynthetic pathways for over 300 specific chemicals of 
interest. We are targeting an overall 20-fold cost reduction in 
new product development.
    Further, our team of biologists, engineers, and material 
scientists are choosing these chemicals to form the basis for 
new materials. These materials are expected to have novel 
properties in categories as wide-ranging as thermal stable 
plastics, marine adhesives, and antiseptic battlefield 
dressings.
    While the potential application of each new material 
generates considerable interest, what excites me and my 
colleagues at Zymergen most is the creation of a cutting-edge 
technological platform designed to accelerate innovation in new 
materials, an area where innovation has slowed, and 
importantly, an area historically completely unrelated to 
biotechnology. This is but an example of the myriad ways 
biotechnology can impact the U.S. economy and improve society. 
I am pleased this hearing presents an opportunity to engage in 
dialogue about ways we can work together to realize the 
potential of this industry.
    Thank you.
    [The prepared statement of Dr. Serber follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairwoman Comstock. I thank the witnesses for their 
testimony. Now, I recognize myself for questions for five 
minutes.
    Dr. Shetty, you've testified that one of the potential 
barriers to biomanufacturing is public acceptance of these 
products and sometimes concerns that come up. Can you discuss 
that a little, both the concerns and how to address them? And I 
really would invite all of you--I think you've all addressed 
that a little bit--but how we can best proceed in this and 
address some of the more alarming reactions in an informed and 
scientific way.
    Dr. Shetty. Absolutely. Thank you for the question, 
Chairwoman Comstock.
    It's interesting. To date, biotechnology has largely been 
behind the scenes, right? The--people are not always aware that 
the foods they eat, the medicines they take are made with the 
products of biotechnology. However, I think we're seeing a 
shift. As the technologies are improving, more and more 
consumer-facing products are coming out onto the marketplace. 
So Ginkgo's cultured rose is an example. I also alluded to 
others in my testimony, so animal-free versions of milk, of 
meat, and, you know, there are companies making spider silk 
using yeast and spinning that into jackets. So a Japanese 
company named Spiber is partnering with North Face to bring out 
a spider silk jacket that's currently touring Japan.
    So I think what you're going to see over the next few years 
is that biotechnology is going to be interacting more and more 
directly with the consumer, and this is going to change a--
drive a shift in attitudes naturally. And with that shift in 
attitudes, you're going to see a greater public acceptance of 
this--of these kind of technologies.
    That being said, we continue to have a responsibility to 
ensure transparency in our sector. So, you know, there are 
obviously a lot of concerns around, you know, what does a 
supply chain look like for the products I buy? Should I be 
seeing certain labels on my foods or in my--the products I buy?
    I think really a lot of those conversations really stem 
from a desire for information, a desire for knowledge. And what 
I'm excited about actually is that through biotechnology we can 
actually increase the transparency of our supply chains. If my 
yeast are growing these products in a fermenter in the middle 
of Iowa, it's a lot easier for me to understand where exactly 
my--the products I'm buying at the grocery store come from.
    And so, in short, I would suggest that were seeing a 
transformation happen. As the tools get better and better, more 
and more consumer-facing products are going to be coming out 
onto the market and drive a change in attitudes.
    Dr. Dickman. If I could just chime in quickly----
    Chairwoman Comstock. Yes.
    Dr. Dickman. --to be the devil's advocate, I think in the 
past--and I agree with much of what you said, Dr. Shetty--I 
would argue that academic scientists who are unfamiliar with 
have--we have not done a great job in communicating to the 
public what it is we do and why it is so vitally important. I 
think that's changing now, but the--a lot of what you see in 
the newspapers are sort of peer-based sort of newsworthy items. 
You never hear about the success stories that are also going on 
and actually in much more abundance. So I think we just need to 
be sensitive to the public to a large part being uninformed 
properly to what it is we do. And we're all--myself, as well as 
companies, until recently have not really dealt with that. In 
my view, we can do a better job of showing the great things 
that this powerful set of technologies can in fact do.
    Chairwoman Comstock. Okay. Okay. Well, thank you very much. 
And I will now yield to Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you. It's been really very interesting, 
and I've learned a lot here, although I still can't say I 
exactly know what you're doing.
    But I want to throw this more general question out there 
and have everyone tell me what you think can be done because I 
know that Dr. Shetty had talked about U.K. and China have 
work--well-coordinated national programs in synthetic biology. 
So I want to start with Dr. Shetty. And you talked a little bit 
about this, but what do you think along those same lines that 
we should be doing? The big thing here is you're here to tell 
us what we can do to be helpful in moving things forward and we 
have the best benefits for our society here. So, Dr. Shetty, 
what would you--anything else you would recommend? I know you 
talked about quite a few things.
    Dr. Shetty. Yes, so I think one of the things we need to 
appreciate is that biotechnology today is not just about health 
and medicine, right? And I think this hearing is testimony to 
that. Biotechnology in the future is going to have major 
impacts in many other areas besides health and medicine, 
including, you know, manufacturing, agriculture, and energy. So 
I think what needs to happen is that there needs to be a 
national recognition of that importance, and we need to push 
forward a more organized national funding program in this area. 
And so H.R. 591 is a step in this direction, and I would 
encourage you to garner bipartisan support for this bill and 
push it forward.
    Mr. Lipinski. Thank you. Dr. Serber, do you have anything? 
So what are other countries doing? You know, what can we do 
that we're not doing?
    Mr. Serber. A couple of things come to mind. So amongst 
them is a coordinated roadmap. The efforts in the United States 
are fragmented. The support for this growing industry doesn't 
have a clear home base for lobbying, for support, for garnering 
the kind of widespread development of the tools that we're 
going to require to push forward the sector.
    I mentioned a couple of times that we're receiving DARPA 
support, and I believe that today in the field of synthetic 
biology DARPA has far and away provided more support than any 
other federal agency for this enterprise. I think it amounts to 
roughly 60 percent of the dollars spent by the federal 
government in 2015 to this new field.
    DARPA's a very small agency, and they can't go it alone, 
and their focus is on creating a preventing strategic surprise. 
So their application space is understandably focused. I'm 
looking forward to other agencies using that as inspiration to 
build support base, funding for additional research both in 
academia and translational research. I'm looking for 
educational programs to help give the cross-disciplinary 
familiarity because to succeed in this field requires expertise 
not in the silos of biology or chemistry or physics or computer 
science, but rather cross-trained individuals who are equally 
versed in aspects of all of the above to really push the field 
forward.
    Mr. Lipinski. Thank you. Anyone else wants to go? Dr. 
Evans?
    Dr. Evans. So I think one of the things that you can see 
looking over the history of this technology space, the United 
States, through some very aggressive, risky, early technology 
investments, pioneered the field. I think when people are 
rewriting--or writing the history looking back from 100 years 
or so, they will see that these early federal efforts pioneered 
the field nationally and led globally with the idea that 
engineering biology could become that next revolution on the 
scale of technology development along the first Industrial 
Revolution.
    However, as Dr. Serber was showing, there isn't now in the 
United States a coordinated framework of either the research or 
of how it can be effectively moved into market acceptance. And 
so when you look at some of the things that the other countries 
are doing, they are attempting to make sure that industry and 
academics are being mushed together to an extent. So the 
centers that are being funded particularly in the U.K. require 
some joint industry, government, and academic input. And I 
continue to point to Synberc as a very good example of that 
domestically.
    But all of this will have the same challenge that the U.S. 
biotechnology industry had in the mid-1980s when we were trying 
to apply genetic engineering techniques to recombinant bacteria 
for release into the environment for bioremediation and other 
things that are going to be logical outcomes of all of the 
biome research. So we're going to have paper after paper that 
says wouldn't this be cool or important if we could do this in 
engineering a phytobiome? But there's not going to be a 
regulatory path to get an engineered prokaryotic organism out 
into the environment because we just haven't dealt with those 
questions. They were brought up, stopped, and dropped.
    And so coordinating that kind of federal research that 
helps build extramural research centers that might be needed to 
deal with questions around release will be very important to 
realize the broad application of some of the engineering 
technologies that require deliberate release outside of 
contained fermentation.
    Mr. Lipinski. Thank you. And I'm over time here so I'm 
going to--I think I'm going to have to yield back. Thank you.
    Chairwoman Comstock. Great. Thank you. And I now recognize 
Mr. Moolenaar for five minutes.
    Mr. Moolenaar. Thank you, Madam Chair, and I want to thank 
all of you for being with us here today and for your testimony.
    And I wanted to follow up on some of the things that have 
been discussed. One is in the area of coordinated research you 
mentioned, both long-term research, you know, market 
acceptance, coordinated roadmaps, strategic plan. It seems like 
those themes keep coming up. And then there's also the 
coordinated framework for the regulation of biotechnology that 
hasn't been updated since 1992. And I'm assuming the memo--the 
White House memo was instructing that that would be updated. Is 
that correct?
    Who--I've heard different agencies mentioned, the EPA, 
USDA, FDA. Who is the point on that? Is there one agency that 
the convener in that? Dr. Maxon?
    Ms. Maxon. The Office of Science and Technology Policy is 
working with all three agencies because all three agencies 
regulate products that are biotechnology products. One of the 
challenges I think my colleagues have referred to is there are 
bio-innovations that straddle agencies, that seem to belong 
partly in the domain of the USDA and partly in the domain of 
the FDA, and the EPA for that matter. There are examples where 
all three agencies might be involved.
    So I think what's really promising about this is there will 
be an opportunity to not only update but also to clarify the 
roles of the agency. Who is the lead agency when a company 
wants to have discussions? So all three and the Office of 
Science and Technology Policy are working together.
    Mr. Moolenaar. And are you all giving input to that 
process? Do you feel like you're at the table discussing that 
with them?
    Dr. Maxon. I know there was a recent request for 
information. Several companies did submit information. There 
will be another chance. A couple of more--I think there are two 
more public meetings scheduled. The first one was held on 
September 30, I believe, at the FDA. There'll be two other 
meetings scheduled around the country starting in January, I 
believe. There'll be plenty of opportunity.
    Mr. Moolenaar. Okay. And then what's the timing on--would 
it be a new rule, a new regulation, a framework that comes out 
and then there'd be a public comment period after that 
framework comes out?
    Dr. Maxon. I can't speak to the definite product of the 
expected products. I do know that in addition to the work at 
the agencies, their will--around the coordinated framework 
itself, there will be--there's an expectation, as outlined in 
the memo, for a long-term strategic plan to be delivered in a 
fairly short time frame by the agency. So they have a couple of 
jobs to do. But I do believe that there will be open comment on 
any product that comes out.
    Mr. Moolenaar. Okay. Any others have any comment on that?
    Dr. Serber. Many of the partner companies we work with who 
are already engaged in large-scale manufacturing are stimulated 
to become involved in this process by--the writing is on the 
wall for them that if they don't embrace the new technology, 
their competitiveness with the products that they make will be 
eclipsed by others who have. So this framework is really 
required to maintain the United States' lead in the 
manufacturing of many of these goods, without which we will be 
stuck manufacturing products using 1980s, 1990s technologies, 
and others will be employing the more advanced technologies and 
have better economics around manufacturing.
    Mr. Moolenaar. And is the framework the same as the 
strategic plan or is that totally different?
    Dr. Maxon. These are two different----
    Mr. Moolenaar. Okay.
    Dr. Maxon. Yes.
    Mr. Moolenaar. And then who is driving the strategic plan?
    Dr. Maxon. I believe from the memo the effort is the 
Administration with the Office of Science and Technology Policy 
in concert with the three regulatory agencies. But I believe 
OSTP is working with the agencies. I didn't want to say they're 
running it but they're coordinating it.
    Mr. Moolenaar. Okay. Dr. Evans, did you have a comment on 
that?
    Dr. Evans. Not on the last question, I was--on your 
question before. You know the thing that is important is the 
predictability. That is what is important for us in, say, the 
ag industry where our development timelines are a decade. And 
so when you have policy shifts or in--particularly when you 
have policy frameworks that don't have a strong science base so 
that you can bring data to the decision to try to move and have 
an informed and data-driven process. That's where things get 
increasingly challenging for us to make investment decisions 
that are reliable and robust.
    Mr. Moolenaar. Okay. Thank you, Madam Chair. And thank you 
for your insights.
    Chairwoman Comstock. I now recognize Congressman Abraham.
    Mr. Abraham. Thank you, Madam Chairman.
    Dr. Dickman, let's go back to you for just a second. You 
referenced the MAGE and the CAGE, the multiplex automatic 
genomic engineering and the computer-aided on your research. 
It's certainly my belief and I think the belief of many of us 
that world security is the food scarcity or having food 
security for underdeveloped nation. And I think one of the 
criteria for being an underdeveloped nation is that you simply 
can't provide enough food for your people. So in my opinion 
this is another piece of the pie that we fight world terrorism 
with, that we're able to feed the people that can actually do 
some good and do some good things.
    So I guess the question is how far in your crystal ball are 
we away from really getting there to some of these 
underdeveloped nations of these technologies where you can 
potentially grow wheat in the middle of a desert or you can 
increase yields by five to ten percent? Where are we in the 
timeline there?
    Dr. Dickman. Well, it depends if the glass is half-full or 
half-empty.
    Mr. Abraham. Right.
    Dr. Dickman. Certainly, there are a lot of positive 
progresses that are being made in developing countries, but 
it's a complex--it's not a compound, but it's a complex issue. 
There's a lot of politics involved, and while the growers 
generally support these kinds of plans and roots to food 
production, they're often hampered by politicians and people of 
other interests. So the hurdles to overcome, depending on the 
country you're talking to, are considerable.
    But I might add, for it--but it can be done. Let me--
bananas, to use something I know a little bit about, are now in 
human field trials actually in Iowa with the hope that the 
hoops have gone through sufficiently to put them out on a 
humanitarian effort in Africa in another year as bananas--you 
know, the rice--Golden Rice, which is even making vitamin A and 
preventing blindness in children, has run into lots of--which 
has been heavily advertised and it's sort of the poster child 
for transgenic crop plants has slowed down considerably due to 
regulatory hurdles.
    So to answer your question, to where it would be a viable 
economy with an assortment of crop plants, we're probably 
talking ten years as well I would say realistically.
    Mr. Abraham. Okay. That's a good enough ballpark. At least 
we've got some thing we can--maybe put our toe in the water in 
so to speak.
    Dr. Serber--and I'll go to Dr. Evans or anybody on the 
panel who wants to answer this--you mentioned the Swiss cheese, 
I guess, effect of our regulatory process here in the States, 
but you also mentioned that we need to accelerate innovation, 
and those two are pretty much diametrically opposed. But 
anytime we regulate, we slow down the process tremendously.
    So the balance of--I'll flip to the health side for just a 
minute with the CRISPR technology and the Cas9. We have the 
potential and the ability, I think even now, to cure single 
mutations, single gene mutations, but again, we have countries 
that are abusing this to the point of trying to manufacture a--
the perfect child or the perfect person. Where is the middle 
ground here? Where do we start, I guess, is a question of how 
we can accelerate innovation but at the same time make sure 
that this wonderful technology doesn't fall into the hands of 
some nefarious people?
    Dr. Serber. The quick answer from my--and really, it's just 
from our point of view--is the place to start is in simpler 
systems. The mammalian application of these technologies is 
more complicated when it comes to the ethical and legal 
considerations. The application--the technology actually began 
as a natural phenomenon in bacterium, and it has been applied 
across the animal kingdom in very short order, given its power.
    We at Zymergen apply those sorts of technologies in the 
application of microbes like bacteria that--from which they 
were originally found for the purposes of improving them in the 
biocatalysis that they are used in large-scale fermentation. 
This is a--makes for us from our perspective a nice testbed for 
assessing the suitability of the technology in a regime that 
certainly has oversight--I'm not implying for a moment it 
doesn't--but doesn't raise as many issues as other applications 
have. And as I think we learn more about the technology and its 
applications and grow more comfortable with it in this sector, 
it will be much easier and more natural to move it and expand 
it into other sectors, which will include human health.
    Mr. Abraham. All right. Thank you. I'm out of time, Madam 
Chair.
    Chairwoman Comstock. I now recognize Mr. Westerman for five 
minutes.
    Mr. Westerman. Thank you, Madam Chair, and thank you to the 
witnesses for being here today.
    I grew up in a time where I read stories about Dr. George 
Washington Carver and the amazing things that he did, sort of 
the man who can make something out of nothing with his research 
on peanuts and sweet potatoes.
    When I was in high school I thought I was just getting out 
of school for a day but I was very involved in the Future 
Farmers of America, and I got invited to a conference. It was 
called the Governor's Conference on Agricultural Innovation. It 
was hosted by then-Governor Bill Clinton and the special guest 
was Norman Borlaug, so I got to be a member of that panel. I'm 
not sure how that happened. If I'd known the significance of it 
at the time, I might have listened a little bit closer.
    But, you know, there was a time when people who did this 
research and came up with all these great ideas were given 
Nobel Prizes. There were departments at colleges named after 
them. They won all kinds of awards and were viewed as heroes, 
yet today, if you fast-forward, as a Member of Congress, I get 
a lot of constituent feedback in opposition to the GMOs or any 
kind of biological research. I did also--I attended forestry 
school, and the time I was there it was during the--a lot of 
the genome--human genome research. My undergraduate degree was 
in biological and agricultural engineering, so I've kind of 
followed this for a while.
    But at the time the human genome was being mapped, the 
genome of the pine tree was not--or was being worked on but it 
was about seven times more complicated than the human genome. 
And I believe in 2014 they finally mapped--or sequenced the 
pine tree genome with about 23 billion pairs to it. And I know 
that when you talk about biofuels, if you look at pine trees 
and you look at the amount of lignin in the tree versus 
cellulose, you could engineer a tree to make a lot more lignin, 
which would create more biofuels or you could engineer it to 
make more cellulose, which would be better than paper. So there 
are a lot of benefits to this. But also, there seems to be a 
lot of pushback.
    Dr. Dickman, do you believe that gene editing technology is 
related to crossbreeding or hybridization techniques that have 
been used for thousands of years, or is it something totally 
new that we should be afraid of?
    Dr. Dickman. You're properly managed. I'll learn one of 
these days.
    I think--again, as was stated previously, the gene editing 
technology is a much more serious issue in the biomedical field 
because you're talking about generating transgenic people and 
there's lots of ethical issues. But in terms of plants, they've 
been mixing--naturally mixing populations, as you said, 
thousands of years and naturally for the most part selecting 
traits of interest.
    But CRISPR and genome editing in general can convert the 
plants field is a much more significant leap of time to get to 
the desired product, much more power--experimental power. So 
they're basically under the same--under a similar umbrella but 
have different rates of progress. That is one reason why CRISPR 
and genome editing is so exciting because the potential to 
create variation in terms of breeding practices is virtually 
unlimited and much, much more rapid and much more informed as--
toward the breeding population. So it confers a number of 
advantages. Again, it comes back to public understanding what 
exactly this is and how it works and why it's beneficial as 
opposed to just being something, you know, with--DNA-related 
and more concern that really should be alleviated.
    Mr. Westerman. And I know from the forestry side there was 
concerns about Franken-trees----
    Dr. Dickman. Right.
    Mr. Westerman. --you were going to plant these trees and 
they would take over the landscape.
    Dr. Dickman. The monster that ate Cleveland.
    Mr. Westerman. Right.
    Dr. Dickman. It hasn't happened yet.
    Mr. Westerman. But most of these genetically modified 
organisms, they require more of a specific environment to 
survive, and in the natural world they can't propagate 
themselves as well is my understanding of that.
    Dr. Dickman. That's true. There's a lot of microbes out 
there. I mean, as I was rushing to say, in the phytobiome work, 
it's now become clear that these microorganisms confer a number 
of different traits to the host plant that they're residing in, 
and if you remove those microorganisms, you loose the trait, 
you lose tolerance, you lose disease resistance. So if we can 
understand the microbiome in plants or in any other--or even in 
the human gut where it's being done quite extensively, that 
gives us another avenue of approach to try to generate the 
kinds of things we need to better the world.
    Mr. Westerman. And, Dr. Evans, what are the environmental, 
safety, and health impacts of genetically engineered plants and 
animals?
    Dr. Evans. I think that's a great question. Those are 
things that have been well covered by the history of the 
coordinating framework in bringing products through from the--
from initial registrations in 1995, 1996 on with the original 
BD crops.
    So both nationally and internationally these products have 
had a large degree of oversight. There have been hundreds of 
studies conducted by third parties, so independent researchers. 
Of course, companies have to provide data. Even the 
universities that are attempting to move some of these products 
as they try to get into field trials have to provide safety and 
environmental data.
    So I think the concept of what is there from the large 
company perspective, we don't see major gaps where we could 
just try to drive something unregulated through the system. We 
have a lot of desire to be able to want the public to have 
confidence in these products because they're going to consume 
them.
    And so the thing we still need though is, you know, after 
20 years the regulatory burden, the familiarity with the 
products, and the technologies don't appear to be decreasing 
the submission packages or time. And so things just keep 
getting added and added, and they do not appear always to have 
a strong scientific base.
    And so I think the federal government can help provide some 
research in some of the questions and independent research by 
federal land-grant universities and such that could help move 
that question down the road because we aren't going to be able 
to feed the population of the planet, as has already been 
discussed, by simply applying and hoping for the next 
incremental increase in a breeding approach. There are things 
that need to be brought to bear in this time frame to 2050 that 
require novel solutions.
    Mr. Westerman. Thank you. Thank you, Madam Chair, for your 
indulgence.
    Chairwoman Comstock. Thank you.
    And I now recognize Mr. Tonko for five minutes.
    Mr. Tonko. Thank you, Madam Chair. And welcome to the 
panelists.
    As a nation, we are woefully under-producing scientists and 
engineers. In order to remain a competitive global economic 
power in the 21st century, I believe that we as a nation need 
to place a strong focus on STEM education. I fear that without 
an increased commitment to STEM education, American students 
will not be represented in the STEM fields and American workers 
will be unable to compete for jobs or grow careers in the 
enhancing STEM industries that exist.
    It seems that this is the case in this area as well. In 
fact, Dr. Saber's testimony mentions the need for employees 
with expertise in multiple relevant domains. So to any of our 
panelists, my question would be would you please discuss the 
skills that are necessary, essential for emerging 
interdisciplinary fields like the field that we're discussing 
here today? Anyone?
    Dr. Serber. I'll start but I think other members of the 
panel have something to say about it. It's worth highlighting 
that a panel like this is composed of people who've spent at 
least a quarter-century in school apiece getting the skills 
required to reach a level of just pure competence in the field. 
And it's especially difficult given the long time horizons of 
the educational program to stay current in a rapidly evolving 
system. And having federal support to be nimble and flexible 
around that to change the educational programs and support as 
the technology improves is absolutely critical.
    I found myself recently in conversations with faculty at UC 
Berkeley discussing new master's programs that they want to 
install with an eye towards training staff for jobs in 
businesses and companies like that of Zymergen, the company 
that I founded with two others, which certainly involves a lot 
of biology but also more automation, robotics, computation, 
computer science than you would think. And I'm finding that 
there are certain educational programs across the United States 
when I go higher that are particularly adept at cross training 
graduate students and undergraduates for a future in this 
career, which will be intrinsically cross-disciplinary. It is 
no longer sufficient to get ahead in a technical field to be an 
utter specialist in one area, at least by my estimation.
    Mr. Tonko. Thank you. I believe, Dr. Evans, you were going 
to say something?
    Dr. Evans. I think that if you look at what we need and the 
students that are interesting to us, one of the places that I 
get a lot of encouragement is looking at something like iGEM, 
the program that's focused at not only the college level but 
there are high school teams competing in iGEM now. And a number 
of them developed products, concepts, projects that are related 
to agriculture, the environment. They're very sensitive to 
detection and remediation.
    And so what do you have--what you have in common there is a 
need to understand questions and to be able to inform ways of 
thinking about questions that are often not just, say, one gene 
at a time anymore or even one question at a time. If you start 
thinking about the interaction of these microbials, these would 
be multiple microbes interacting with a plant that might be 
interacting with an insect. So everything about it is 
interaction-based, and so scientific skills that can help 
students begin to comprehend interactions.
    But those interactions also have an important metaphor, 
which is interaction with the community at large. Just because 
we can do something, people need to ask the question should we 
or how should we. And those interactions of science with their 
technology at the bench, being able to go have a conversation 
with someone who is in another department in the school with no 
science background at all, those skills are very unique and 
quite lacking. And so we need to be able to integrate a good 
sense of science, of--across a number of disciplines, but the 
ability to think and ask questions, at least understand or 
comprehend questions, that there could be policy or health or 
ILSI implications is important.
    Mr. Tonko. Right. Dr. Maxon, I think you had a comment you 
wanted to share?
    Dr. Maxon. Yes. Yes, thank you. Sorry. I have a bit of a 
cold and I'm making sure I can get through this.
    A couple of thoughts come to mind. In the United States 
approximately 50,000 people per year receive doctorates. More 
than half of those people--it depends on the field, of course--
but more than half of those people don't end up in 10-year-
track academic positions. You're looking at a table here with a 
bunch of people who got academic training through the 
apprenticeship model that gives us our Ph.D.'s.
    But what we are not trained to do is understand the skill 
sets, I think--to underscore the points made by my colleagues--
to work in industry, to manage a budget, to understand how to 
write a business plan. These are not things we learned in the 
system.
    And so on the level of graduate education I would say that 
the United States should work a little harder to broaden the 
exposure of graduate students to the kinds of skills they're 
going to need, depending on what field they're going to end up 
in, whether it's going to be science journalism or academic 
research or a medical research or plant research, at a company. 
It doesn't matter. I think we can do a better job at that.
    At the undergraduate level, a couple of thoughts occurred 
to me there, too. 1) Most importantly, I think we see the best 
outcomes in developing scientists and engineers when we give 
them immersion opportunities, not just canned lab experiments 
to do that thousands of students before us have done, but 
actual research experiences where we are the first people to 
ever actually do an experiment in an undergrad environment. I 
know that's hard to do and I know it's expensive, but there are 
people who are doing it and I think it's very good trend in the 
right direction.
    And lastly, community colleges, I know some of the national 
labs, ours included, are working very hard to establish 
relationships with community colleges to put into the curricula 
critical inspirational pieces for understanding how to engineer 
biology. So I think there's a lot of work we could do.
    Mr. Tonko. Thank you very much. I think you've all cited a 
need for investment, and I endorse that.
    Madam Chair, I don't know if Dr. Shetty had any comment. It 
looked like you wanted to share some thoughts.
    Chairwoman Comstock. Sure. You're welcome to----
    Ms. Shetty. Yes, the one comment I want to add to my fellow 
panelists is that STEM education starts--needs to start early. 
It's not--doesn't begin at the undergraduate level. I myself 
had the benefit of doing a research experience at my local 
university as a high school student. And those early exposures 
to STEM education is critically important to fostering the 
scientists today, particularly when you're talking about young 
women, right? There are a lot of--the balance of genders 
between men and women in science and math fields is very skewed 
in a certain direction, and so we're not tapping into the full 
potential workforce with those statistics.
    And so as I look forward encouraging young girls to 
participate in STEM fields is absolutely important. And as a 
mom with a young daughter, you know, I want that for her.
    Mr. Tonko. Super. Madam Chair, thank you, and I yield back.
    Chairwoman Comstock. Thank you. And I'm glad we got to have 
you mention that opportunity. I started a Young Women's 
Leadership Program so we could do that very thing, and my 
daughter is a biology major, did not get any of that from me 
so--but she had a lot of great women teachers at George Mason 
here in her master's program.
    I'll now recognize Mr. LaHood for five minutes.
    Mr. LaHood. Thank you, Madam Chair. And I want to thank the 
witnesses for being here and for your testimony and all the 
work that you do.
    Dr. Shetty, question for you. There's been discussion about 
how the United States is losing our competitive edge with China 
and the United Kingdom when it comes to synthetic biology, and 
I guess trying to understand the reasons for that and why we're 
falling behind and what steps we need to take to maintain our 
competitive advantage in biotechnology.
    Ms. Shetty. Yes, thank you for the question. So I think 
probably the best example of interest in--the worldwide 
interest in this area is the International Genetically 
Engineered Machines competition. This is an undergraduate 
competition in synthetic biology where teams from universities 
design and build genetically engineered machines, organisms. 
And for the past few years most years the winner is not from 
the United States, right? It's coming from Europe, coming from 
China, coming from overseas. So I think this is a reflection of 
what is to come if we don't make domestic investments in this 
area.
    And so I think part of the problem or part of what needs to 
happen in this country is that we need an organized program of 
investments, right? No one piece is enough because there's a 
lot of synergy to be had between having the agencies understand 
and coordinate their research efforts both on the basic R&D 
side but also on the translation into industry through SBIR 
programs, and then finally, as I alluded to in my opening 
remarks, the U.S. Government serving as a customer for 
biotechnology products as these nascent industries are getting 
going.
    And so we need a coordinated, multipronged strategy, and 
that has--that coordinated strategy has been pushed forward by 
the United Kingdom, by China, by other countries in the EU, but 
so far, we have not done the same here in the United States.
    Mr. LaHood. In the competition that you referenced, when 
did that change occur where the United States hasn't been the 
winner? Was that recently or 5--how long ago?
    Ms. Shetty. The competition started in about 2004. I would 
say by 2005, 2006 there started to be--the winners of the 
competition started to become schools from outside the United 
States rather than within the United States even though this 
field largely has its original roots in the United States. I 
was there. I was part of it.
    Mr. LaHood. Got you. Dr. Maxon, as a follow-up, my home 
State of Illinois has a large and diverse bioscience industry 
with over 78,000 jobs and 3,400 businesses that contribute to 
the State's economy as it relates to bioscience. I know you 
were the author of the National Bioeconomy Blueprint in 2012 
that outlined steps that federal agencies should take to drive 
the bioeconomy in the United States. I know we referenced that 
a little bit earlier, but what's the status of those 
recommendations in that report?
    Ms. Maxon. Thank you for that opportunity to talk about 
what's happened since the release of that policy document.
    I think the recent memo on July 2 from the White House 
talking about taking a look at the regulatory framework--the 
coordinated framework is a direct reflection of one of the five 
strategic objectives of the National Bioeconomy Blueprint. So I 
would say in that regard right at the top of the list is taking 
a look at the coordinated framework.
    Workforce development was another. You've heard some ideas 
of how we might be able to jumpstart the system, get a few more 
chemical processing engineers, that kind of thing, still need 
some work to be done there.
    Public-private partnerships for biosciences, I think what 
could be done there--and there are some efforts underway right 
now I believe, funded by the NSF, to identify precompetitive 
research challenges that industry shares that might actually 
benefit from government--public-private partnership with both 
government and company investment.
    So those are three right away. A couple more, strategic 
research investments, that was the number one objective in the 
National Bioeconomy Blueprint. I think you've heard most of the 
people, if not all the people on the panel, say the same thing. 
We could do a better job here. And one of the reasons, to 
answer your last question, to address your last question about 
why are we falling behind in synthetic biology specifically, I 
look at this as another example of technology. Nanotechnology 
is an example, emerging technologies. Technology in general 
sort of falls between the cracks in the federal agencies, and 
so I think the idea of a coordinated--federally coordinated 
strategic approach to lift the technology is where I think some 
opportunity still remains.
    Mr. LaHood. Thank you. Madam Chair, if I could ask one last 
question of Dr. Shetty?
    Chairwoman Comstock. Okay.
    Mr. LaHood. Thank you. Dr. Shetty, one of your company's 
projects funded by DOE ARPA program supports R&D to capture 
natural gas flared by shale. Can you describe how your company 
is using that biotechnology to conduct this work, and what have 
those outcomes been thus far?
    Dr. Shetty. Thank you for the question. So there's an 
interesting transition that's happened in recent years in this 
country, which is that on a per-carbon basis, carbon derived 
from methane, natural gas, methanol is cheaper than carbon 
derived from other sources, say, sugar. And so there's a 
growing interest in--both within our company and others in 
using these as feedstocks for bio-production of various 
chemicals and fuels.
    And so we had initially had DOE ARPA-E funding in this area 
to develop some nascent technologies, and we've since partnered 
that work with a commercial partner and are taking it forward. 
Now, unfortunately, because it's partnered, I'm under some 
confidentiality restrictions and so I'm not able to speak to 
the details of that program, but suffice it to say, this is an 
area of interest both for ourselves and others, and it's a 
potential new frontier when it comes to bio-production of these 
types of fuels.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Hultgren.
    Mr. Hultgren. Thank you, Madam Chair. Thank you all so much 
for being here for this important discussion. I do believe this 
is an important hearing.
    And as technology continues to evolve and new opportunities 
materialize, it's increasingly necessary that we keep our 
regulatory structure up-to-date while developing biotechnology 
in the most ethical way possible. This means coordination and 
communication between our researchers, their institutions, our 
government, and also among government agencies.
    Dr. Maxon, I wonder if I could address my first couple 
questions to you. You mentioned the Human Genome Project in 
your testimony, which for me has been an excellent example of 
the unique capabilities of the Department of Energy to bring to 
the table in computing, among other things. DOE basically had 
to start the project to prove the concept before NIH was able 
to take this up as a serious cost-effective endeavor. How has 
the Human Genome Project benefited the nonhuman health biotech 
sectors? And also, is there a similar systematic sequencing 
project needed for agriculture or naturally occurring chemicals 
as well?
    Dr. Maxon. Thank you for your question. I apologize. I have 
a bit of a cold today. To your first question, Human Genome 
Project, how has it benefited the non-biotechnology. I assume 
you mean the non-biomedical world?
    Mr. Hultgren. Yes, I'm sorry.
    Dr. Maxon. No, thank you for clarification. I think one 
thing that that human genome sequencing project did was 
democratized DNA sequencing. So laboratories everywhere, 
whether you're studying viruses or the plant microbiome, 
whatever it is, people can now sequence DNA very quickly as a 
consequence of the human genome sequencing project.
    So I think that--and in fact, I don't think it's 
overestimating it to say all of biology has benefited in that 
way. Anything that has DNA, if you can sequence DNA quickly and 
cheaply and in a democratic fashion, everything has benefited. 
So I think the magnitude of that can't be underscored. If you 
could remind me of your second question?
    Mr. Hultgren. Yes, the second question was, you know, as 
far as agriculture or other naturally occurring chemicals is 
there a similar systematic sequencing project that we need or 
where we should focus?
    Ms. Maxon. A similar systematic sequencing project, wow. I 
am not in a great position to answer that question. I think I 
would defer that to my agricultural colleagues.
    Mr. Hultgren. Does anybody else have a--yes.
    Mr. Dickman. There is actually quite a bit being done in 
agricultural sequencing if you will. In fact, NSF has a plant 
genome program that is actually very well-funded, nice to hear, 
and has been ongoing for a number of years. There's also 
microbial genome sequencing program that just finished.
    So--and also independently, now that it has gotten so 
relatively inexpensive and available and doable in a rapid 
fashion, there's a lot--there's a great many agricultural-
related genome sequencing projects going on now.
    Another area to be marketable in is bioinformatics and 
computation because back when I was a student, you know, we 
cloned the gene was your thesis. Now, you go home, it's 25,000 
genes and you have to figure out what to deal with it. So 
there's a massive amount of data handling, but that is being 
done to the United States' credit in support of those kinds of 
projects.
    Mr. Hultgren. That's great. Thank you. I'm going to go back 
to Dr. Maxon if that's all right. From your time at OSTP and 
now with the lab, surely you've seen the difficulties of 
getting agencies to work together, especially in getting them 
to leverage one another's resources, tools, and human 
expertise. It sounds to me like there is great potential if 
agencies would work more closely together in this space, for 
instance, if ag aggressively leveraged the synthetic biology 
and genomic capabilities of the national labs. I wonder, will 
this work and what do you suggest? How do we--from your 
experience, how do we best work together?
    Dr. Maxon. Thank you for that question. I'm tremendously 
optimistic about this. I do think there's an incredible 
opportunity here. The potential is amazing. I was heartened to 
see the President's Council of Advisors on Science and 
Technology in December of 2012, or at least a report called 
``Agricultural Preparedness.'' And in that report they 
recommended that the USDA work with the DOE and the NSF to set 
up new innovation ecosystem hubs for agriculture. I think an 
idea like that where the DOE, that knows how to set up 
innovation hubs, working with the USDA, could go a long way 
with NSF in making something like this happen.
    I was also heartened to see not long after that report that 
the USDA, in its budget, requested funds for a biomanufacturing 
institute. So I think we're very close and I'm very optimistic. 
So I think it will work. It just might take a little bit more 
time.
    Mr. Hultgren. Great. My time is almost expired. I will 
yield back my last 7 seconds. Thank you.
    Chairwoman Comstock. And I now recognize Mr. Weber for five 
minutes.
    Mr. Weber. Thank you, Madam Chair. And let the record show 
I have five minutes and second seconds.
    Thank you for the opportunity to be here and participate.
    And, Dr. Dickman, this question is for you. The past--this 
past year public researchers involved in communicating the 
science of biotechnology and its impacts have been--actually 
been targeted both professionally and personally. I'm sure 
you're aware that. Doctor, as a public scientist, can you give 
me more background kind of into the current academic feeling on 
this public outreach? You all are getting targeted a lot of--
some stuff has been aimed at you. What's the feeling amongst 
your peers?
    Dr. Dickman. Well, a number of things, disappointment and 
things of that nature when you see a greenhouse that's been 
destroyed by stones, for example, with all kinds of messages 
written on them. It's a bit disconcerting. But in terms of 
people's research, I don't think that has impacted it. I mean 
people are still doing what they plan to do and continue to do 
and get funded to do. So it's an unfortunate circumstance. I 
really don't think it's really had a strong impact on people's 
ability to do work with the exception that there is some 
material things that have been destroyed that needed to be 
replaced. It's been--is actually not too bad now.
    Mr. Weber. Not too bad? You actually said I believe in your 
discussion with the Chairwoman that you felt like you all 
needed to do a better job of showing capabilities, I guess 
educating the public?
    Dr. Dickman. Very much so.
    Mr. Weber. Has that been progressing?
    Dr. Dickman. Well, I do it by--on sort of a grassroots 
level. We don't have any organized framework with which to do 
this. I think we do. We do need that, whether it be from 
academic or--and/or companies----
    Mr. Weber. Have you done the genomic sequencing on that 
grass? You said grassroots level.
    Dr. Dickman. That's actually in the queue for other 
reasons.
    Mr. Weber. All right. So you're doing it at the basic level 
is what you're saying.
    Dr. Dickman. Well, there's a number of turf breeders who 
work strictly on golf course turf you might want to talk to.
    Mr. Weber. There is a shock, huh? Well, we'll thank you for 
that.
    And, Dr. Evans, as you know, Dow Chemical has a lot of 
industry in my district there in Texas. In fact, I was going to 
tell the gentleman from Illinois--he left before I could--that 
there was 78,000 jobs associated with this. In Texas, there's 
81,000 jobs. Things are bigger in Texas.
    So--but, Dr. Evans, you also mentioned in the three C's of 
national needs both continuing to support national scientific 
funding agencies and convening forms of discussion for the 
public engagement or outreach that Dr. Dickman and I were just 
discussing. With limited resources in public research, what 
role do companies, for example, like Dow Chemical play in 
promoting that scientific interest?
    Dr. Evans. Well, I think one of the ways that we have been 
involved last year with the help of the NSF, the Woodrow Wilson 
Institute, there was a convening of companies, regulatory 
bodies, and nongovernmental entities that had interest in the 
environmental release of microorganisms, whether they be algal 
strains that might do chemical production or concepts that 
synthetic biology might want to bring into the environment. 
That group at least published recommendations where things 
could go, with some of those recommendations being specific 
federal funding.
    Now, companies I do think need to be able to know where to 
direct their research, and their research needs to be aimed at 
their product technology space and legitimate questions around 
that product area. But there are some things that just are big 
enough in scope or they are fundamental questions of biology or 
biotechnology that are more properly addressed in integrative 
lab studies from multi-university settings or they might be 
appropriate to be something that would be the outcome of a 
national lab and a focused program. And--but industry could 
then, even in that scenario, be an appropriate partner. The--I 
think the thing from the public perspective is we need to make 
sure that the public can see transparently where those 
contributions are being made and----
    Mr. Weber. That's a good point, you know, in your 
discussion with the gentleman from New York, Representative 
Tonko, I think you said, just because we can do something, you 
should ask the question should we do something. And if the 
public perceives that a company is getting involved, is that a 
conflict of interest? I think you were the one who said--let me 
quote you. Earlier, you said that we needed more feed, fuel, 
fiber, and food, more--and by 2050 than in the last 10,000 
years. That's an astounding fact. And with limited resources 
available I think if the public knew, you know, what was at 
stake here, that they might not be so suspicious. But I 
appreciate your testimony and, Madam Chair, your indulgence. 
And I yield back.
    Chairwoman Comstock. Thank you. And I think by agreement 
Mr. Westerman has a few more questions, and I'm going to let 
him have the chair because I'm going to have to depart. But I 
want to thank the witnesses very much for a very interesting 
and insightful hearing and appreciate all the great research 
you're doing. And I'm glad we have two women here, too. So 
thank you. And we certainly appreciate the men, but thank you 
for your comments, Dr. Shetty, and we will keep those in mind 
going forward, too. Thank you.
    Mr. Westerman. [Presiding] I guess that's one way to get to 
ask another question.
    So, Dr. Maxon, you mentioned this briefly in some remarks, 
but talking about nanoscience, and I was able to tour the 
Institute for Nanoscience and Engineering Technology at my alma 
mater, the University of Arkansas. It was very exciting to me, 
the possibilities there. So I was wondering if the panel could 
address the opportunities in nanoscience as it relates to 
biotechnology. And is this an area that needs more research 
funding?
    Dr. Maxon. I'm not an expert in nanotechnology but I'll 
kick this off and then allow my colleagues to respond.
    I know that nanotechnology intersects with biotechnology in 
some of the high-level treatments that are being done now to 
target certain therapeutics at certain parts of the--very 
specific parts of the body. I know that nanotechnology is used 
in the process of doing some diagnostic kinds of analyses, 
again, in the biomedical space. I don't--like I said, I'm not 
an expert. I don't know much about how nanotechnology 
intersects with the non-biomedical fields. It'd be interesting 
to hear from my colleagues whether there are any.
    Dr. Evans. There was in fact a small NSF industry and 
university consortium that was established at the University of 
Illinois to try to bring together--it was established at a 
former nanotechnology center. Well, it still is a 
nanotechnology center, but they brought in industry that was 
involved in agriculture, some other industry that was involved 
in food and diagnostics and medicine to try to come in and 
bring products to market rapidly that could be based on 
nanotechnology.
    I think if you just step way back--I'm not a physicist, but 
the thing that nanotechnology did to material sciences has 
helped re-envision what was possible. We thought we knew what 
was possible with our understanding of the physics and of the 
performance of materials at a certain scale, but nanotechnology 
changed that, and remarkable products and concepts came out of 
that.
    I think engineering biology is doing the same thing to 
biology. We had a framework of what was possible that was 
rocked with the development of recombinant DNA technology in 
the early '80s. Insulin came very quickly after that, a Nobel 
Prize. Now, we have high school students that could do the same 
level of engineering that formed early products. And so this is 
reengineering what is--or reimagining what is even possible 
using biology for what it's very good at, making things, making 
nano-structured things. Biology makes wonderfully complicated 
nano-structured materials in things besides carbon. And so how 
does it do that? And how could technology be brought to bear to 
do that?
    And so I think it's questions like that that a good, well-
thought-out national plan for bringing students and bringing 
the technology to bear could follow on that metaphor of 
nanotechnology. And I had to bring in associated concepts of 
regulatory and safety all at the same time.
    Mr. Westerman. Dr. Maxon?
    Dr. Maxon. To follow on the point that Dr. Evans just made, 
the National Nanotechnology Initiative is a great example of a 
coordinated effort that gave rise to coordinated federal 
research, coordinated interest in public science, the public 
understanding of the science. I think that that model exists 
that could be applied here.
    Mr. Westerman. Anybody else like to address the nanoscience 
question?
    Dr. Serber. Only very briefly that biology is already the 
supreme source of nano-exquisite molecular structures. Biology 
and the enzymes that it employs to do chemistries are there for 
us to make use of as we attempt to expand the chemical palette 
of building blocks that we can use to make new materials. So 
there is a definite overlap in some of the applications.
    Mr. Westerman. And, Dr. Serber, just as a quick last 
question, your work in biofuels, can you describe some of the 
barriers that exist for bringing biofuels to market? I know 
there's been a lot of attempts, not really any successful 
attempts.
    Dr. Serber. Yes, quickly, so I'm currently no longer 
working on biofuels, but I did spend about seven years pursuing 
biofuels. And the challenges that that sector faces are driven 
by the macroeconomic forces having to do with the price of oil 
in the price of feedstocks for the fermentation products.
    It's worth highlighting that in the course of pursuing 
biofuels, both with private and federal funding, all the tools 
that we are--this panel is making use of to drive other 
applications and other technology, a lot of that began with 
biofuels. The biofuels have not yet reached the economic 
tipping point to be competitive, but things only need to change 
a little bit for that to turn around. And we'll be ready when 
they do.
    Mr. Westerman. Okay. I'd like to thank the witnesses for 
their valuable testimony and the Members for their questions. 
The record will remain open for two weeks for additional 
comments and written questions from Members. The witnesses are 
excused and this meeting is adjourned.
    [Whereupon, at 11:52 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

             Prepared statement of Committee Ranking Member
                         Eddie Bernice Johsnon

    Thank you, Madam Chairwoman for holding this hearing. I want to 
thank you and the Ranking Member for putting together such a 
distinguished panel of witnesses who represent the national 
laboratories, large companies, start-up companies, and academia.
    This morning, we are talking about emerging biotechnologies and 
their applications for the energy, agricultural, and manufacturing 
sectors.
    A number of these new technologies are based on engineering biology 
research that allows researchers to safely re-engineer existing 
biological systems and to learn from and mimic existing biological 
systems to perform novel tasks and develop novel materials and 
products.
    These new technologies are exciting and have the potential to solve 
some of society's greatest challenges, including providing food for a 
growing population, reducing our dependency on fossil fuels, and 
dramatically transforming manufacturing. Additionally, they have 
numerous applications for the biomedical sector, some of which we heard 
about at a hearing this past summer.
    Given the promise of this research and its applications, I 
introduced the Engineering Biology Research and Development Act of 
2015, with my Science Committee colleague, Mr. Sensenbrenner.
    The bill would establish a framework for greater coordination of 
federal investments in engineering biology and lead to a national 
strategy for these investments. The bill would also focus on expanding 
public-private partnerships and on education and training for the next 
generation of engineering biology researchers.
    Additionally, the bill will ensure that we address any potential 
ethical, legal, environmental, and societal issues associated with 
engineering biology. It will also ensure that public engagement and 
outreach are an integral part of this research initiative.
    The goal of this legislation is to ensure that the United States 
remains preeminent in this critical area of science and technology. As 
I anticipate hearing this morning from our witnesses, if we do not make 
the necessary investments, we will lose our leadership position in 
engineering biology.
    We are already seeing other countries make significant progress. 
The EU and others are investing, working on coordinated strategies 
across their research enterprises, and developing action plans to 
execute those strategies. Right now, we are still a leader in 
engineering biology, but we must continue our work to ensure that we do 
not cede this leadership position.
    This field has the potential to grow our economy, create jobs, and 
improve our quality of life. Even though we are in an increasingly 
interconnected world, it is important to do all we can to promote 
innovation and job creation here at home.
    I am hopeful that we can work together across the aisle to ensure 
that the United States remains a leader in engineering biology.
    In closing, I want to thank the witnesses for being here today and 
I yield back the balance of my time.

                                 <all>
</pre></body></html>
